VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                        Inspection of 

                                                                     VA Regional Office 

                                                                    Wilmington, Delaware 





                                                                                     June 11, 2013
                                                                                      12-04328-211

              ACRONYMS AND ABBREVIATIONS 


OIG          Office of Inspector General
QRT          Quality Review Team
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

        (Hotline Information: http://www.va.gov/oig/contacts/hotline.asp) 

                Report Highlights: Inspection of VA
                Regional Office Wilmington, DE

Why We Did This Review                          not provide adequate outreach to homeless
                                                veterans in their area of jurisdiction.
The Veterans Benefits Administration
(VBA) has 56 VA Regional Offices                What We Recommend
(VAROs) and 1 Veterans Service Center
nationwide that process disability claims and   The VARO Director should develop and
provide a range of services to veterans. We     implement a plan to ensure staff input
evaluated the Wilmington VARO to see how        suspense      diaries,  schedule     medical
well it accomplishes this mission.              reexaminations, and follow up to reduce
                                                benefits for temporary 100 percent disability
What We Found                                   evaluations when appropriate. The Director
                                                should ensure staff review the temporary
Overall, VARO staff did not accurately          100 percent disability evaluations to
process 17 (50 percent) of 34 disability        determine if reexaminations are required for
claims we reviewed. We sampled claims           those claims not reviewed as part of the OIG
that we considered to be at higher risk of      statistical sample. Management should also
processing errors, thus these results do not    implement a plan to provide outreach to
represent the overall accuracy of disability    homeless shelters and service providers.
claims processing at this VARO. Claims
processing that lacks compliance with VBA       Agency Comments
procedures can result in the risk of paying
inaccurate and unnecessary financial            The VARO Director concurred with our
benefits.                                       recommendations. Management’s planned
                                                actions are responsive and we will follow up
Specifically, 17 of 30 temporary 100 percent    as required.
disability evaluations we reviewed were
inaccurate. Generally, errors in processing
the temporary evaluations occurred because
VARO staff did not input suspense diaries
or take timely actions to schedule medical
reexaminations or reduce benefits as
appropriate. All four traumatic brain injury
claims that VARO staff completed from                      LINDA A. HALLIDAY
April through June 2012 were correctly                 Assistant Inspector General
processed.                                              for Audits and Evaluations

Management ensured Systematic Analyses
of Operations were complete and timely.
However, staff did not always annotate Gulf
War veterans’ entitlement to mental health
care on decision documents. Staff also did

                                                                                            i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 
Results and Recommendations ........................................................................................................2
 
    I. 	 Disability Claims Processing ...............................................................................................2
 
           Finding 1           Wilmington VARO Could Improve Disability Claims Processing 

                               Accuracy .........................................................................................................2
 
                               Recommendations...........................................................................................6
 
    II. 	Management Controls ..........................................................................................................7 

    III. Eligibility Determinations....................................................................................................8 

           Finding 2	          Gulf War Veterans Did Not Always Receive Entitlement Decisions

                               for Mental Health Treatment ..........................................................................8 

    IV. Public Contact ......................................................................................................................9 

           Finding 3           Oversight of the Homeless Veterans Outreach Program Needs

                               Improvement ...................................................................................................9 

                               Recommendation ..........................................................................................10 

Appendix A                     VARO Profile and Scope of Inspection ........................................................11 

Appendix B                     Inspection Summary .....................................................................................13 

Appendix C                     VARO Director’s Comments........................................................................14 

Appendix D                     Office of Inspector General Contact and Staff Acknowledgments ..............15 

Appendix E                     Report Distribution .......................................................................................17 





                                                                                                                                                 ii
                                                               Inspection of VARO Wilmington, DE


                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Division contributes to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Scope of            In November 2012, we inspected the Wilmington VARO. The inspection
Inspection          focused on the following four protocol areas: disability claims processing,
                    management controls, eligibility determinations, and public contact. Within
                    these areas, we examined five operational activities: temporary 100 percent
                    disability evaluations, traumatic brain injury (TBI) claims, Systematic
                    Analysis of Operations (SAOs), Gulf War veterans’ entitlement to mental
                    health treatment, and the homeless veterans outreach program.

                    We reviewed 30 (34 percent) of 87 rating decisions where VARO staff
                    granted temporary 100 percent disability evaluations for at least 18 months,
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to Veterans Benefits
                    Administration (VBA) policy. We examined all four disability claims
                    related to traumatic brain injury (TBI) that VARO staff completed during the
                    period April through June 2012.

Other               	 Appendix A includes details on the VARO and the scope of our
Information            inspection.
                     Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                     Appendix C provides the VARO Director’s comments on a draft of this
                       report.




VA Office of Inspector General                                                                1
                                                                         Inspection of VARO Wilmington, DE


                    RESULTS AND RECOMMENDATIONS
                    I. Disability Claims Processing

                    The OIG Benefits Inspection team focused on accuracy in processing claims
                    related to temporary 100 percent disability evaluations and TBI. We
                    evaluated these claims processing issues and assessed their impact on
                    veterans’ benefits.

Finding 1 	         Wilmington VARO Could Improve Disability Claims Processing
                    Accuracy

Claims              The Wilmington VARO did not consistently process temporary 100 percent
Processing          disability cases accurately. The four TBI claims completed and available for
Accuracy
                    our inspectors to review were processed accurately. Overall, VARO staff
                    incorrectly processed 17 of the total 34 disability claims we sampled. The
                    inaccurate processing of the temporary 100 percent disability cases resulted
                    in 179 improper monthly payments to 10 veterans totaling $297,289 from
                    February 2009 until the time of our inspection.

                    We sampled claims related only to specific conditions that we considered at
                    higher risk of processing errors. As a result, the errors identified do not
                    represent the universe of disability claims processed at this VARO. As
                    reported by VBA’s Systematic Technical Accuracy Review program as of
                    July 2012, the overall accuracy of the VARO’s compensation rating-related
                    decisions was 75.2 percent—11.8 percentage points below VBA’s
                    FY 2012 target of 87 percent. This program information was not reviewed
                    during the scope of this inspection.

                    The following table reflects the errors affecting, and those with the potential
                    to affect, veterans’ benefits processed at the Wilmington VARO.

Table 1                      Wilmington VARO Disability Claims Processing Accuracy
                                                                        Claims Inaccurately Processed

                           Type of Claim          Reviewed      Affecting       Potential To
                                                                Veterans’      Affect Veterans’       Total
                                                                 Benefits          Benefits
                      Temporary 100 Percent
                                                     30            10                  7                17
                      Disability Evaluations
                      Traumatic Brain Injury
                                                      4             0                  0                0
                      Claims
                      Total                          34            10                  7               17
                       Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid
                       at least 18 months or longer and TBI disability claims completed in the third quarter
                       FY 2012



VA Office of Inspector General                                                                                 2
                                                                Inspection of VARO Wilmington, DE

Temporary           VARO staff incorrectly processed 17 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a service-connected disability following a veteran’s
                    surgery or when specific treatment is needed. At the end of a mandated period
                    of convalescence or treatment, VARO staff must request a follow-up medical
                    examination to help determine whether to continue the veteran’s 100 percent
                    disability evaluation.

                    For temporary 100 percent disability evaluations, including confirmed and
                    continued evaluations where rating decisions do not change veterans’
                    payment amounts, VSC staff must input suspense diaries in VBA’s
                    electronic system. Wilmington had five errors where suspense diaries were
                    not established. A suspense diary is a processing command that establishes a
                    date when VSC staff must schedule a reexamination. As a suspense diary
                    matures, the electronic system generates a reminder to alert VSC staff to
                    schedule the reexamination.

                    Without effective management of these temporary ratings, VBA is at risk of
                    paying inaccurate financial benefits. Available medical evidence showed
                    10 of the 17 processing errors we identified affected veterans’ benefits. The
                    processing inaccuracies resulted in 179 improper monthly payments totaling
                    $297,289 from as early as February 2009 until the time of our inspection.
                    Details on the most significant overpayment and underpayment follow.

                    	 A Rating Veterans Service Representative (RVSR) correctly assigned an
                       evaluation of 100 percent for a veteran’s laryngeal cancer and annotated
                       the need for a routine future examination in July 2008; however, VSC
                       staff did not input a suspense diary in the electronic system as required;
                       therefore, a reminder notification to schedule the reexamination did not
                       generate. VA treatment reports showed the veteran’s cancer was no
                       longer active so a reduction in benefits should have occurred in
                       April 2009. As a result, VA overpaid the veteran $110,662 over a period
                       of 3 years and 7 months.
                    	 An RVSR did not establish entitlement to a special monthly
                       compensation based on loss of use of a creative organ due to prostate
                       cancer, as required. As a result, VA underpaid the veteran $3,777 over a
                       period of 3 years and 3 months.

                    The remaining 7 of the total 17 errors had the potential to affect veterans’
                    benefits. We could not determine whether the evaluations would have
                    continued because the veterans’ claims folders did not contain the medical
                    examination reports needed to evaluate each case. In cases where routine
                    future medical reexaminations were not scheduled as required, claims
                    processing delays ranged from approximately 9 months to 8 years and
                    2 months. An average of approximately 3 years elapsed from the time staff



VA Office of Inspector General                                                                  3
                                                                Inspection of VARO Wilmington, DE


                    should have scheduled these medical reexaminations until the date of our
                    inspection.

                    Summaries of the 17 total errors we identified follow.

                    	 Five errors occurred when staff did not establish suspense diaries in the
                       electronic record; thereby, removing the possibility that staff would
                       receive reminder notifications to schedule medical reexaminations.
                    	 Five errors occurred when staff did not timely reduce benefits after
                       notifying veterans of the intent to do so. On average approximately
                       1 year and 3 months elapsed from the time staff should have reduced
                       benefits until the date of our inspection and ranged from 1 month to
                       3 years and 9 months. As a result, veterans’ claims were not effectively
                       managed.
                    	 Two errors occurred when RVSRs did not establish entitlement to special
                       monthly compensation for a medical condition secondary to service
                       connected prostate cancer.
                    	 Two errors occurred when RVSRs entered incorrect routine future
                       examination dates on the rating decision code sheet. The dates entered
                       by RVSRs extended temporary 100 percent disability evaluations beyond
                       the required reexaminations dates by 1 and 10 years, respectively. The
                       temporary 100 percent disability evaluations may have continued
                       uninterrupted until the erroneous reexamination dates and resulted in
                       inaccurate benefits payments, had we not identified these cases for
                       review during our inspection.
                    	 One error occurred when staff did not schedule a medical reexamination
                       in November 2004 as requested by an RVSR. A review of the claims
                       folder showed the veterans’ reexamination date was entered correctly in
                       the electronic system; however, the paper reminder notification to
                       schedule the reexamination was not in the claims folder nor did staff
                       schedule the reexamination.
                    	 One error occurred when an RVSR entered an incorrect code related to a
                       special monthly compensation benefit for a veteran. In this case, staff
                       entered an incorrect code which resulted in incorrect payments to the
                       veteran.
                    	 One error occurred when an RVSR did not grant entitlement to
                       Dependents’ Educational Assistance in March 2011 despite medical
                       evidence of a disability considered by VBA to be permanently and totally
                       disabling.

                    In November 2009, VBA provided guidance reminding VARO staff about
                    the need to input suspense diaries to the electronic record as reminders to
                    schedule medical reexaminations. However, VARO managers had no
                    oversight procedure in place to ensure VSC staff established suspense diaries

VA Office of Inspector General                                                                 4
                                                                 Inspection of VARO Wilmington, DE


                    and scheduled reexaminations timely, nor did they ensure staff complied
                    with established procedures to reduce benefits when appropriate. Temporary
                    100 percent disability evaluations could have continued uninterrupted over
                    the veterans’ lifetimes if we had not identified the need for VARO staff to
                    take actions to schedule reexaminations.
Actions Taken       In response to a recommendation in our national report, Audit of 100 Percent
in Response to      Disability Evaluations (Report No. 09-03359-71, January 24, 2011), the
Prior Audit
Report
                    Acting Under Secretary for Benefits agreed to review all temporary
                    100 percent disability evaluations and ensure each had a future examination
                    date entered in the electronic record. Our report stated, “If VBA does not
                    take timely corrective action, they will overpay veterans a projected
                    $1.1 billion over the next 5 years.” The then Acting Under Secretary for
                    Benefits stated in response to our audit report that the target completion date
                    for the national review would be September 30, 2011.

                    VBA did not provide each VARO with a list of temporary 100 percent
                    disability evaluations for review until September 2011. VBA subsequently
                    extended the national review deadline to December 31, 2011, and then again
                    to June 30, 2012. At the time of our inspection, VBA was working to
                    complete this national review requirement, but extended the deadline again
                    to December 31, 2012. We are concerned about the lack of urgency in
                    completing this review, which is critical to minimize the financial risks of
                    making inaccurate benefits payments.

                    During our 2012 inspection, we followed up on VBA’s national review of its
                    temporary 100 percent disability evaluation processing. We sampled
                    40 cases from the lists of cases needing corrective actions that VBA had
                    provided to the Wilmington VARO for review. We determined VARO staff
                    accurately reported actions, such as inputting suspense diaries or taking
                    actions to schedule reexaminations, on all 40 cases we reviewed. However,
                    in comparing VBA’s national review lists with our data on temporary
                    100 percent disability evaluations, we found five cases involving prostate
                    cancer or non-Hodgkin’s lymphoma that VBA had not identified. We could
                    not determine why these cases were not identified by VBA; however, we will
                    continue monitoring this situation as VBA works to complete its national
                    review.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report
                    No. 11-00510-167, May 18, 2011), VBA agreed to develop and implement a

VA Office of Inspector General                                                                   5
                                                                Inspection of VARO Wilmington, DE


                    strategy for ensuring the accuracy of TBI claims decisions. In May 2011,
                    VBA provided guidance to all VARO Directors to implement a policy
                    requiring a second signature on each TBI case an RVSR evaluates until the
                    RVSR demonstrates 90 percent accuracy in TBI claims processing. The
                    policy indicates second signature reviewers come from the same pool of staff
                    as those used to conduct local station quality reviews.

                    VSC staff correctly processed all four TBI claims completed from April
                    through June 2012 and complied with VBA’s second signature policies that
                    require these types of claims undergo an additional level of review. The
                    Quality Review Team (QRT) is responsible for conducting local quality
                    reviews at the Wilmington VARO. The QRT concept is an initiative
                    implemented by VBA to ensure standardized quality reviews among
                    VAROs. Staff assigned to QRT teams in VAROs receive specialized
                    training by Systematic Technical Accuracy Review (STAR) Program staff.

Follow Up to        Our prior report, Inspection of the VA Regional Office, Wilmington,
Prior VA OIG        Delaware (Report No. 09-01994-230, September 29, 2009), stated staff
Inspection
                    followed VBA policy when processing TBI-related disability claims.
                    Results of our current inspection indicate staff continue to process TBI
                    claims accurately.

                    Recommendations
                    1.	 We recommend the Wilmington VA Regional Office Director develop
                        and implement a plan to ensure claims processing staff input suspense
                        diaries in the electronic record and timely schedule medical
                        reexaminations when the reminder notifications generate.

                    2.	 We recommend the Wilmington VA Regional Office Director develop
                        and implement a plan to ensure claims processing staff take timely
                        actions to finalize reductions in benefits when appropriate.

                    3.	 We recommend the Wilmington VA Regional Office Director conduct a
                        review of the 57 temporary 100 percent disability evaluations remaining
                        from our inspection universe and take appropriate action.

Management          The VARO Director concurred with our recommendations. In December
Comments            2012 and again in February 2013, VARO staff received additional training
                    on processing reminder notifications and scheduling medical reexaminations.
                    The Director also plans to address these issues in future Systematic Analysis
                    of Operations. Additionally, the Director updated the VARO’s workload
                    management plan to include supervisory oversight procedures to ensure staff
                    take timely actions to reduce benefits when appropriate. VARO staff
                    reviewed the 57 temporary 100 percent disability evaluations remaining from
                    the OIG’s inspection universe and took appropriate actions.


VA Office of Inspector General                                                                 6
                                                                Inspection of VARO Wilmington, DE

OIG Response        The Director’s comments          and    actions   are   responsive   to   the
                    recommendations.

                    II. Management Controls
Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support analyses and recommendations identified within each SAO.
                    An SAO is a formal analysis of an organizational element or operational
                    function. SAOs provide an organized means of reviewing VSC operations to
                    identify existing or potential problems and propose corrective actions.
                    VARO management must publish annual SAO schedules designating the
                    staff required to complete the SAOs by specific dates. The VSC Manager is
                    responsible for ongoing analysis of VSC operations, including completing
                    11 SAOs annually.

                    VARO staff completed all 11 mandated SAOs timely according to the SAO
                    schedule. All 11 SAOs included thorough analyses using appropriate data,
                    identified weaknesses or concerns, and provided recommendations for
                    improvement.

Follow Up To        Our prior report, Inspection of the VA Regional Office, Wilmington,
Prior VA OIG        Delaware (Report No. 09-01994-230, September 29, 2009), stated staff
Inspection
                    timely completed all analyses related to mandatory SAOs as required.
                    Results of our current inspection indicate staff continue to complete thorough
                    and timely SAOs.




VA Office of Inspector General                                                                  7
                                                               Inspection of VARO Wilmington, DE


                    III. Eligibility Determinations

Medical             Gulf War veterans are eligible for medical treatment for any mental disorder
Treatment for       they develop within 2 years of the date of separation from military service.
Mental
Disorders
                    According to VBA, whenever an RVSR denies a Gulf War veteran service
                    connection for any mental disorder, the RVSR must consider whether the
                    veteran is entitled to receive mental health treatment.

                    In February 2011, VBA updated its Rating Board Automation 2000, a
                    computer application designed to assist RVSRs in preparing disability
                    ratings. The application provides a pop-up notification, known as a tip
                    master, to remind staff to consider a Gulf War veteran’s entitlement to
                    mental health treatment when denying service connection for a mental
                    disorder. This pop-up notification does not generate if a previous decision
                    did not address entitlement to mental health services and a mental condition
                    is not part of the current claim.

Finding 2           Gulf War Veterans Did Not Always Receive Entitlement Decisions
                    for Mental Health Treatment

                    VARO staff did not properly address whether 5 of 14 Gulf War veterans
                    were entitled to receive treatment for mental disorders. In all five cases,
                    VSC staff correctly addressed the entitlement decisions, but did not formally
                    annotate the decisions on the decision documents. These errors generally
                    occurred because RVSRs and QRT staff were unaware of the requirement to
                    annotate entitlement decisions on the decision documents.

                    We reviewed FY 2012 training records and confirmed VARO staff had not
                    received training emphasizing the need to document these entitlement
                    decisions on the rating documents. When VARO staff do not annotate
                    entitlement decisions on decision documents, VA treating facilities cannot
                    determine whether veterans are entitled to mental health care benefits.

                    In December 2012, VBA modified its policy to state that RVSRs no longer
                    have to address Gulf War veterans’ entitlement to mental health care in all
                    cases. RVSRs only have to consider this entitlement when the veteran’s
                    mental health benefit can be granted based on diagnosis of a mental disorder
                    within 2 years of separation from military service. Because this policy
                    modification became effective after we concluded our inspection of the
                    Wilmington VARO, we cannot determine whether the change might have
                    affected the number of errors we identified. Therefore, we make no
                    recommendation for improvement.




VA Office of Inspector General                                                                 8
                                                                  Inspection of VARO Wilmington, DE


                     IV. Public Contact
Outreach to          In November 2009, VA developed a 5-year plan to end homelessness among
Homeless             veterans by assisting every eligible homeless veteran willing to accept
Veterans             service. VBA generally defines “homeless” as lacking a fixed, regular, and
                     adequate nighttime residence.

                     Congress mandated that at least one full-time employee oversee and
                     coordinate homeless veterans programs at each of the 20 VAROs that VA
                     determined to have the largest veteran populations. VBA guidance, last
                     updated in September 2002, directs that coordinators at the remaining
                     VAROs be familiar with requirements for improving the effectiveness of
                     VARO outreach to homeless veterans.          These requirements include
                     developing and updating a directory of local homeless shelters and service
                     providers. Additionally, the coordinators should attend regular meetings
                     with local homeless service providers, community governments, and
                     advocacy groups to provide information on VA benefits and services.

 Finding 3 	         Oversight of the Homeless Veterans Outreach Program Needs
                     Improvement

                     The Wilmington VARO did not regularly contact or provide information and
                     training to homeless shelters and service providers in areas under its
                     jurisdiction. VARO management did not provide oversight or guidance to
                     ensure effective homeless veterans outreach. As a result, homeless shelters
                     and service providers may not be aware of benefits and services available to
                     homeless veterans.

                     Although VARO staff attended some local outreach events targeting
                     homelessness, they did not maintain a directory of homeless shelters and
                     service providers within their area of jurisdiction as required. Consequently,
                     staff did not regularly contact or provide these shelters and service providers
                     with information on benefits and services available to veterans. Management
                     told us they did not provide guidance or oversight of the homeless veterans
                     program prior to our inspection because they were unaware of the
                     requirement to do so. They instead focused on processing claims received
                     from homeless veterans.

                     In October 2012, VARO staff created a Homeless Veterans Standard
                     Operating Procedure that included the required directory of shelters and
                     service providers; however, we were unable to determine the impact of the
                     operating procedure on the homeless veterans outreach program because it
                     was implemented after we notified the VARO of our inspection. We also
                     noted that VBA needs a performance measurement to assess the
                     effectiveness of its homeless veterans outreach efforts.



 VA Office of Inspector General                                                                   9
                                                                Inspection of VARO Wilmington, DE


                    Recommendation
                    4.	 We recommend the Wilmington VA Regional Office Director develop
                        and implement a plan to ensure staff update the resource directory and
                        regularly contact and provide outreach to homeless shelters and service
                        providers under the VA Regional Office’s jurisdiction.

Management          The VARO Director concurred with our recommendation. In February 2013,
Comments            staff updated the directory of homeless shelters and service providers within
                    the VARO’s jurisdiction. Staff then mailed information about homeless
                    veterans benefits and services to the shelters and service providers listed in
                    the directory. Management designated staff responsible for updating the
                    directory annually. Additionally, the outreach coordinator will now conduct
                    outreach to homeless shelters under the VARO’s jurisdiction on a quarterly
                    basis.

OIG Response        The Director’s comments and actions are responsive to the recommendation.




VA Office of Inspector General                                                                 10
                                                               Inspection of VARO Wilmington, DE


Appendix A          VARO Profile and Scope of Inspection

Organization        The Wilmington VARO administers a variety of services and benefits,
                    including compensation and pension benefits; vocational rehabilitation and
                    employment assistance; benefits counseling; and outreach to homeless,
                    elderly, minority, and women veterans.

Resources           As of October 2012, the Wilmington VARO had a staffing level of
                    28 full-time employees. Of this total, the VSC had 25 employees assigned.

Workload            The Wilmington VARO reported 1,076 pending compensation claims in
                    October 2012. The average time to complete claims was 210.5 days;
                    39.5 days less than the national target of 250.

Scope               We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders.

                    Our review included 30 (34 percent) of 87 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of
                    September 5, 2012. We provided VARO management with 57 claims
                    remaining from our universe of 87 for its review. As follow-up to the
                    National audit, we sampled 40 temporary 100 percent disability evaluations
                    from the SharePoint list VBA provided to the VARO as part of its national
                    review. We also reviewed all four TBI-related disability claims that the
                    VARO completed from April through June 2012.

                    Where we identify potential procedural inaccuracies, this information is
                    provided to help the VARO understand the procedural improvements it can
                    make for enhanced stewardship of financial benefits. This information is not
                    provided to require the VAROs to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.

                    We assessed the 11 mandatory SAOs completed in FY 2012. We examined
                    14 completed claims processed for Gulf War veterans from April through
                    June 2012 to determine whether VARO staff addressed entitlement to mental
                    health treatment in the rating decision documents as required. Further, we
                    assessed the effectiveness of the VARO’s homeless veterans outreach
                    program.




VA Office of Inspector General                                                               11
                                                                 Inspection of VARO Wilmington, DE

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, contained data
                    outside of the time frame requested, included any calculation errors,
                    contained obvious duplication of records, contained alphabetic or numeric
                    characters in incorrect fields, or contained illogical relationships among data
                    elements. Further, we compared veterans’ names, file numbers, Social
                    Security numbers, VARO numbers, dates of claim, and decision dates as
                    provided in the data received with information contained in the claims
                    folders we reviewed.

                    Our testing of the data disclosed that they were sufficiently reliable to meet
                    our inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders at the Wilmington VARO did not
                    disclose any problems with data reliability.

                    While this report references VBA’s Systematic Technical Accuracy Review
                    (STAR) data, the overall accuracy of the VARO’s compensation
                    rating-related decisions was 75.2 percent—11.8 percentage points below
                    VBA’s FY 2012 target of 87 percent. This data was not reviewed as part of
                    this inspection.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation. We planned and performed the inspection to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our inspection objectives. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our inspection objectives.




VA Office of Inspector General                                                                  12
                                                                          Inspection of VARO Wilmington, DE


Appendix B           Inspection Summary

Table 2 reflects the operational activities inspected, applicable criteria, and whether or not we
had reasonable assurance of VARO compliance.

                        Table 2. Wilmington VARO Inspection Summary
                                                                                             Reasonable
 Five Operational                                 Criteria                                   Assurance of
     Activities                                                                              Compliance
    Inspected
                                                                                             Yes       No
                                              Claims Processing
 1. Temporary        Determine whether VARO staff properly processed temporary
    100 Percent      100 percent disability evaluations. (38 Code of Federal
    Disability       Regulations (CFR) 3.103(b)) (38 CFR 3.105(e)) (38 CFR 3.327)                      X
    Evaluations      (M21-1 MR Part IV, Subpart ii, Chapter 2, Section J) (M21-1MR
                     Part III, Subpart iv, Chapter 3, Section C.17.e)
 2. Traumatic        Determine whether VARO staff properly processed claims for
    Brain Injury     service connection for all disabilities related to an in-service TBI.   X
    Claims           (FL 08-34 and 08-36) (Training Letter 09-01)
                                            Management Controls
 3. Systematic       Determine whether VARO staff properly performed formal
    Analysis of      analyses of their operations through completion of SAOs. (M21-          X
    Operations       4, Chapter 5)

                                          Eligibility Determinations
 4. Gulf War         Determine whether VARO staff properly processed Gulf War
    Veterans’        veterans’ claims, considering entitlement to medical treatment
    Entitlement to   for mental illness. (38 USC 1702) ( M21-1MR Part IX, Subpart ii,                  X
    Mental Health    Chapter 2)(M21-1MR Part III, Subpart v, Chapter 7) (FL 08-15) (38
    Treatment        CFR 3.384) (38 CFR 3.2)

                                                Public Contact
 5. Homeless         Determine whether VARO staff provided effective outreach
    Veterans         services. (Public Law 107-05) (VBA Letter 20-02-34) (VBA
    Outreach         Circular 27-91-4) (FL 10-11) (M21-1, Part VII, Chapter 6)                         X
    Program

 Source: VA OIG
 CFR=Code of Federal Regulations, FL= Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                              13
                                                                            Inspection of VARO Wilmington, DE


Appendix C              VARO Director’s Comments


                  Department of
                  Veterans Affairs
                                                                 Memorandum
          Date:       May 1, 2013

          From:       Director, VA Regional Office Philadelphia, Pennsylvania


          Subj:       Inspection of the VA Regional Office, Wilmington, Delaware


            To:       Assistant Inspector General for Audits and Evaluations (52)


                  1.	 The Philadelphia Regional Office remotely manages the Wilmington Regional
                      Office. The Wilmington VA Regional Office (RO) comments are attached on the
                      OIG Draft Report, Inspection of the VA Regional Office, Wilmington, DE.

                  2.	 Please refer questions to me at (215) 381-3001.



                      (original signed by:)
                       Robert McKenrick 


                       Attachment 





VA Office of Inspector General                                                                            14
                                                                Inspection of VARO Wilmington, DE


Recommendation 1: We recommend the Wilmington Regional Office Director develop and
implement a plan to ensure claims processing staff input suspense diaries in the electronic record
and timely schedule medical reexaminations when the reminder notifications generate.

Concur: The Wilmington RO will include this in our future SAOs. Since this finding, the RO
had RVSR training on December 18, 2012 and again on February 5, 2013, to address this issue.

Recommendation 2: We recommend the Wilmington Regional Office Director develop and
implement a plan to ensure claims processing staff take timely actions to finalize reductions in
benefits when appropriate.

Concur: The Workload Management Plan of December 12, 2012, includes oversight for
monitoring and processing claims involving proposed disability evaluation reduction ensuring
that prompt action is taken to minimize potential overpayments.

Recommendation 3: We recommend the Wilmington VA Regional Office Director conduct a
review of the 57 temporary 100 percent disability evaluations remaining from our inspection
universe and take appropriate action.

Concur: The Wilmington staff reviewed and took appropriate action on all 57 remaining
temporary 100 percent disability evaluations.

Recommendation 4: We recommend the Wilmington VA Regional Office Director develop
and implement a plan to ensure staff update the resource directory and regularly contact and
provide outreach to homeless shelters and service providers under the VA Regional Office’s
jurisdiction.

Concur. In February 2013, the Wilmington RO staff updated the directory of homeless shelters
and service providers within the RO’s jurisdiction. At that time, RO staff contacted these
shelters and service providers by mail to communicate information of homeless Veterans’
benefits and service. The outreach coordinator will make quarterly outreach to the Homeless
Shelters in the Wilmington Jurisdiction. Management also designated staff responsible for
ensuring that update of homeless resource directory and outreach to shelters and service
providers occur annually.




VA Office of Inspector General                                                                 15
                                                       Inspection of VARO Wilmington, DE


Appendix D          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Nora Stokes, Director
                                         Daphne Brantley
                                         Robert Campbell
                                         Madeline Cantu
                                         Ramon Figueroa
                                         Kyle Flannery
                                         Lee Giesbrecht
                                         Lisa Van Haeren
                                         Nelvy Viguera Butler




VA Office of Inspector General                                                       16
                                                               Inspection of VARO Wilmington, DE


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Eastern Area Director
                    VA Regional Office Wilmington Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Tom Carper, Chris Coons
                    U.S. House of Representatives: John C. Carney, Jr.




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               17
